Audit
Report
  MAINTENANCE AND REPAIR TYPE CONTRACTS AWARDED
     BY THE U.S. ARMY CORPS OF ENGINEERS EUROPE


Report No. D-2002-021                 December 5, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFARS                 Army Federal Acquisition Regulation Supplement
CCASS                 Construction Contractor Appraisal Support System
DPW                   Directorate of Public Works
FAR                   Federal Acquisition Regulation
JOC                   Job Order Contract
MATOC                 Multiple Award Task Order Contract
                      Office of the Inspector General, DoD
Report No. D-2002-021                                                December 5, 2001
  (Project No. D2000CK-0081)

           Maintenance and Repair Type Contracts Awarded by
               the U.S. Army Corps of Engineers Europe

                               Executive Summary

Introduction. The Defense Criminal Investigative Service and the U.S. Army
Criminal Investigations Command requested an audit of maintenance and repair type
contracts awarded by the U.S. Army Corps of Engineers Europe, Wiesbaden,
Germany.

The U.S. Army Corps of Engineers Europe provides engineering support to military
personnel, their families, and civilians in Europe. The engineering support includes
technical and contracting support for the maintenance and repair of real property. The
U.S. Army, Europe Directorates of Public Works are responsible for the maintenance
and repair of most of the real property. The U.S. Army, Europe obtains some of their
maintenance and repair services through the U.S. Army Corps of Engineers Europe
who award indefinite-delivery, indefinite-quantity contracts such as job order contracts
and multiple award task order contracts. During the period FY 1998 through 2000, the
U.S. Army Corps of Engineers Europe and the U.S. Army, Europe Directorates of
Public Works awarded 31 job order contracts and 1,506 task orders, valued at about
$99 million, for real property maintenance and repair work in Germany. During the
same period, the U.S. Army Corps of Engineers Europe also awarded 30 multiple
award task order contracts and 60 task orders valued at about $33 million for real
property maintenance and repair work in Germany. We reviewed 138 job order
contract task orders and 57 multiple award task order contract orders with a value of
about $50 million.

Objectives. Our objective was to review the award and administration of maintenance
and repair type contracts awarded by the U.S. Army Corps of Engineers Europe. We
also reviewed the management control program as it related to the audit objective.

Results. U.S. Army Corps of Engineers Europe and U.S. Army, Europe Directorates
of Public Works personnel did not properly award and administer contracts and task
orders for the maintenance and repair of real property in Germany. U.S. Army Corps
of Engineers Europe and U.S. Army, Europe Directorates of Public Works did not:

     •   adequately control and complete contract documents,

     •   properly report on contractor performance,

     •   adequately document end of fiscal year task order awards,

     •   provide adequate job order contract oversight,

     •   report contract actions in a timely and complete manner, and

     •   have current standard operating procedures for contracting functions.

                                           27
During the period of FY 1998 through 2000, we identified one or more deficiencies on
174 of the 195 task orders reviewed. As a result, the rights of the Government were
not adequately protected, and there was an increased potential for fraud, waste, and
mismanagement for about $50 million in job order contracts and multiple award task
order contracts for real property maintenance in Germany. For details of the audit
results, see the Finding section of the report. See Appendix A for details on the
management control program.

Summary of Recommendations. We recommend that the Commander, U.S. Army
Corps of Engineers Europe direct the Director of Contracting to develop, issue, and
implement standard operating procedures to ensure the proper handling and
completeness of contract files, proper and timely reporting of job order contracts,
proper awarding of multiple award task order contracts, and proper performance of
other contract functions. In addition, we recommend that the official contract files
include the required documentation that accurately reflects the action. We also
recommend that the U.S. Army Corps of Engineers Europe District perform additional
oversight of its job order contracts.

We recommend that the Director Public Works, Deputy Chief of Staff, Engineer, U.S.
Army, Europe direct the ordering officers and contracting officer’s representatives,
Directorates of Public Works, U.S. Army, Europe, to properly and completely
document contract actions, report information in a timely and complete manner, and
implement the job order contract coordinator’s recommendations for similar actions.

Management Comments. The U.S. Army Corps of Engineers concurred and agreed
to expand and implement standard operating procedures. The Corps sent a
memorandum to inform all Europe District and Directorate of Public Works managers
of the proper contract requirements, establish internal and external inspection and
reporting procedures, follow up on job order contract staff assistance visit reports, and
train personnel in the new procedures. The Corps will comply with contractor
performance evaluation requirements, monitor multiple award task order contracts to
control issuance, and issue sole source task orders to meet minimum requirements
whenever practical.

The U.S. Army, Europe concurred and endorsed the proposed memorandum from the
Corps of Engineers to the Area Support Group Commanders to express the importance
of maintaining management controls procedures as indicated in the Job Order Contract
Manual. The job order contract staff assistance visits will continue at a minimum of
twice a year for each job order contract and the Inspector General, DoD,
recommendations will be reviewed during the visits to ensure compliance.
Additionally, U.S. Army, Europe staff will follow up within 3 weeks after the
completion of each visit. The Job Order Contract Manual will be relabeled as Job
Order Contract Manual-Standard Operating Procedures and updated to include
examples of documentation. A discussion of management comments is in the Finding
section of the report, and the complete text is in the Management Comments section.

Audit Response. Based on the exit conference held with U.S. Army, Europe after the
issuance of the draft report, we deleted the recommendation to avoid splitting task
orders and renumbered the remaining recommendations. Management comments on
the other draft report recommendations are responsive; therefore, no additional
comments are required.




                                            ii
Table of Contents

Executive Summary                                               i

Introduction
     Background                                                1
     Objectives                                                2

Finding
     Adequacy of Award and Administration of Maintenance and
         Repair Contracts                                       3

Appendixes
     A. Audit Process
         Scope                                                 22
         Methodology                                           22
         Management Control Program Review                     23
         Prior Coverage                                        24
     B. Report Distribution                                    25

Management Comments
     U.S. Army Corps of Engineers                              27
     U.S. Army, Europe                                         32
Background
    The Defense Criminal Investigative Service and the U.S. Army Criminal
    Investigations Command requested an audit of maintenance and repair type
    contracts at the U.S. Army Corps of Engineers Europe (the Corps), Wiesbaden,
    Germany. The Defense Criminal Investigative Service and the U.S. Army
    Criminal Investigations Command performed a joint investigation and believed
    an audit would be beneficial to improve management controls.

    The Corps provides engineering support to military personnel, their families,
    and civilians in Europe. The engineering support includes contracting support
    for the maintenance and repair of real property. The U.S. Army, Europe
    Directorates of Public Works (DPWs) are responsible for the maintenance and
    repair of most of the real property. For a fee, the Corps provides technical and
    contracting services to the DPWs. The U.S. Army, Europe obtains some of
    their maintenance and repair services through the Corps. The Corps awards
    indefinite-delivery, indefinite-quantity contracts such as job order contracts
    (JOCs) and multiple award task order contracts (MATOCs).

    Job Order Contracts. A JOC is an indefinite-delivery, indefinite-quantity
    contract that is awarded by full and open competition and is used to acquire real
    property maintenance and repair or minor construction at installation (post,
    camp, or station) level. The JOC includes a list of repair, maintenance, and
    minor construction task descriptions or specifications, units of measure, and pre-
    established unit prices for each task. A number of tasks normally make up each
    project or job order under a JOC. Contracting personnel compete the basic JOC
    but award task orders without competition. Guidance on the award and
    administration of JOCs is contained in Army Federal Acquisition Regulation
    Supplement (AFARS) 17.90, “Job Order Contracts,” and in the “Job Order
    Contracting Guide,” issued by the Job Order Contracting Steering Committee.

    During the period FY 1998 through 2000, the Corps and DPW personnel
    awarded 1,506 task orders under 31 basic JOCs, valued at about $99 million,
    for real property maintenance and repair work in Germany. The Corps
    contracting office delegated ordering officer and contracting officer’s
    representative responsibilities to 10 DPWs, which allowed DPW personnel to
    award task orders without going through the Corps. The duties and
    responsibilities for the ordering officers and contracting officer’s representatives
    were specified in written delegation letters. The six DPWs that we visited,
    Ansbach, Hanau, Hohenfels, Schweinfurt, Stuttgart, and Wuerzburg, awarded
    841 task orders under 11 JOCs, valued at about $46 million, during the period
    FY 1998 through 2000.

    Multiple Award Task Order Contracts. A MATOC is an indefinite-delivery,
    indefinite-quantity contract. The Corps uses the MATOCs to award contracts to
    several contractors for each discipline such as general repair, road paving,
    demolition, and roofing. The Corps competes the award of individual task
    orders among the MATOC contractors for that discipline. Also, the Corps
    contracting personnel administered MATOC basic contracts and task orders, and



                                         1
     the duties were not delegated to the DPWs. During the period FY 1998 through
     2000, the Corps awarded 30 MATOCs and 60 task orders, valued at about
     $33 million, for maintenance and repair projects in Germany.

Objectives
     Our objective was to review the award and administration of maintenance and
     repair type contracts awarded by the U.S. Army Corps of Engineers Europe.
     We also reviewed the management control program as it related to the audit
     objective. See Appendix A for a discussion of the audit scope and
     methodology, the review of the management control program, and prior
     coverage related to the audit objectives.




                                       2
           Adequacy of Award and Administration
           of Maintenance and Repair Contracts
           The Corps and DPW personnel did not properly award and administer
           contracts and task orders for the maintenance and repair of real property
           in Germany. This condition occurred because Corps and DPW
           personnel did not:

               •   follow Federal and DoD regulations and management controls, or

               •   submit or obtain and maintain reliable and timely information.

           As a result, during the period FY 1998 through 2000, 174 task orders of
           the 195 task orders reviewed were deficient, the rights of the
           Government were not adequately protected, and there was an increased
           potential for fraud, waste, and mismanagement for about $50 million in
           JOCs and MATOCs reviewed for real property maintenance in
           Germany.

Maintenance and Repair Type Contracts
    The Corps and DPW personnel improperly awarded and administered real
    property maintenance and repair contracts in Germany. Corps and DPW
    personnel did not always properly document contract actions, maintain contract
    files, or evaluate and report on contractor performance. In addition, Corps
    personnel did not properly oversee the DPWs use and administration of JOC
    actions.

Management Control Requirements
    Corps contracting personnel did not establish adequate management controls
    over the award and administration of contracts and task orders for real property
    maintenance and repair in Germany. Office of Management and Budget
    Circular No. A-123, “Management Accountability and Control,” defines
    management controls as
               . . . the organization, policies, and procedures used by agencies to
               reasonably ensure that (i) programs achieve their intended results; (ii)
               resources are used consistent with agency mission; (iii) programs and
               resources are protected from waste, fraud, and mismanagement; (iv)
               laws and regulations are followed; and (v) reliable and timely
               information is obtained, maintained, reported and used for decision
               making.




                                             3
The Circular identifies general management controls that ensure compliance
with applicable laws and regulations as well as reasonable assurance that assets
are safeguarded against waste and loss. Corps and DPW personnel did not have
adequate controls in place to ensure regulations and management controls were
followed, reliable and timely information was obtained and maintained, and
program resources were protected from fraud, waste, and mismanagement. Of
the 195 JOC and MATOC task orders reviewed (138 JOC task orders and 57
MATOC task orders), 174 task orders had one or more deficiency. The
deficiencies were incomplete, improper, or missing contract documentation such
as the request for proposal, site visit memorandum, contractor proposal, record
of negotiations, DD Forms 1155, notice to proceed, JOC checklist, or
contractor evaluations. The table summarizes the deficiencies identified at the
Corps and the DPWs.



                          Corps and DPW Deficiencies




                                                                  Schweinfurt



                                                                                            Wuerzburg
                                                      Hohenfels
                                    Ansbach




                                                                                Stuttgart
                                              Hanau
                            Corps




Locating contract files       X

Incomplete task orders        X

Request for proposal                  X        X      X           X             X

Site visit memorandum         X       X        X      X           X             X

Contractor proposal           X                                   X

Record of negotiations        X       X        X                  X

DD Forms 1155                 X

Notice to proceed             X                X      X           X             X

JOC checklist                 X       X        X      X           X             X

Contractor evaluations        X                X

Bona fide need                        X                           X

Monthly status reports                X        X      X           X             X                X

Standard operating            X                                                                  X

procedures




                                          4
Compliance with Regulations and Management Controls
    Corps and DPW personnel did not comply with Federal and Army guidance and
    management controls for the control of contract documents, the reporting of
    contractor performance, end of fiscal year contracting, awarding task orders,
    and JOC oversight.

    Management Controls for Contract Documents. Corps contracting personnel
    did not establish adequate management controls over contract documents.
    Contracting personnel could not readily locate contract and task order files. In
    addition, files located did not always contain the required documentation. Also,
    contract documents within the files were often not properly completed.

           Criteria for Contract Files. Federal Acquisition Regulation (FAR) 4.8,
    “Government Contract Files,” states that file documentation shall be sufficient
    to constitute a complete history of the transaction for the purpose of:

           •   providing a complete background as a basis for informed decisions at
               each step in the acquisition process,

           •   supporting actions taken,

           •   providing information for reviews and investigations, and

           •   providing essential facts in the event of litigation.

    AFARS 17.90 “Job Order Contracts,” states that the contracting officer for the
    JOC shall ensure that all orders and modifications and significant supporting
    documentation issued outside the contracting office are duly received, recorded,
    and reported and are regularly reviewed for completeness and compliance with
    AFARS and sound business practices.

             Locating Contract Files. Corps contracting personnel could not readily
    locate contract and task order files. We selected a judgmental sample of 16
    contracts that included 641 task orders, valued at about $62 million, awarded
    during the period of October 1997 through June 2000. We provided the Corps a
    list of the sample contracts on July 11, 2000. By August 9, 2000, Corps
    personnel were unable to locate 192 (30 percent) of the sample task orders
    (about $11.3 million). Following our initial visit, Corps personnel did an
    inventory of contract documents at the Wiesbaden office and located 142
    (74 percent) of the missing task orders. However, as of November 17, 2000,
    Corps personnel still could not locate 50 (8 percent) of the sample task orders
    that were valued at about $2 million. This condition occurred because the
    Corps did not have current operating procedures for the control of official
    contract files, including procedures for obtaining and returning contract files.
    Contracts and task orders were stored in unidentified boxes, and the files were
    in disarray. Contract personnel should initiate procedures to ensure that
    contract documents are controlled in the proper manner. In addition to the
    difficulty in locating task order files, many task order files did not contain the
    required documentation.


                                           5
        Task Order Files at the Corps. Corps contracting personnel did not
ensure that the official contract files contained the required documentation.
Corps personnel did not enforce the requirements for the DPWs to send the task
order documentation to the Corps. The contracting officer’s representative
designation letter requires the contracting officer’s representative to fax a copy
of the DD Form 1155 “Order for Supplies and Services,” to the Corps within
24 hours of contract award. In addition, the contracting officer’s representative
must provide a copy of the task order file to the Corps within 10 days of
contract award. We could not always determine if or when DPWs sent the task
orders and other documentation to the Corps. Official contract and task order
files should include: request for proposals, record of negotiations,
DD Forms 1155, notices to proceed, and contractor performance evaluations.
Hohenfels and Schweinfurt DPWs were not sending task order documentation
after the task orders were awarded. The Ansbach DPW personnel stated that
they did not send the entire task order file to the Corps.

We reviewed 18 task order files from contract DACA90-99-D-0020 at the Corps
after we had reviewed the same task order files at the Ansbach DPW. None of
the 18 Ansbach task order files at the Corps contained all the required
documentation. Twelve of the task order files contained only the DD Form
1155 and the statement of work or only the DD Form 1155. Five of the 12 files
were faxed the day of our request. Before our visit, the Corps did not have
contract documentation in their official files for those five task orders even
though Ansbach personnel awarded the task orders 2 months to over a year
before. Also, 3 of the 18 task order files did not contain any contract
documents.

Corps personnel did not properly review and file task orders awarded by the
DPWs, and DPW personnel did not always submit required documents to the
Corps. The official contract files were incomplete because management
controls were inadequate. During our review of contract files, we found task
orders filed in the wrong location. Corps personnel claimed that the DPWs
failed to submit the documents while DPW personnel claimed Corps personnel
received the documents but mishandled them. We believe both statements were
true. Corps personnel need to ensure that official contract files include all
required documentation. In addition to missing task order files and incomplete
task order files, many of the documents were insufficient to document the
contract action.

        Contract Documentation. The Corps and DPW personnel did not
properly complete contract documentation. Corps and DPW personnel did not
always adequately complete documentation such as requests for proposal, site
visit memorandums, contractor proposals, records of negotiations, orders for
supplies and services, notices to proceed, and JOC checklists. The missing,
insufficient, undated, and unsigned documents made it difficult to determine
whether the contractor met contract requirements and whether contracting
personnel complied with Federal and DoD requirements. Many of these
problems were also identified by the Corps JOC coordinator during staff visits.




                                    6
                Request for Proposal. Ansbach, Hanau, Hohenfels,
Schweinfurt, and Stuttgart DPW personnel failed to properly prepare the request
for proposal for JOC task orders. The DPW personnel did not include a funds
availability statement and estimated performance time required by the JOC
Manual on the request for proposal. All five DPWs failed to include the funds
availability statement. In addition, Hanau and Hohenfels DPWs failed to
identify the estimated performance time. Requests for proposal should be
properly prepared to avoid any unnecessary time delays and to ensure that the
contractor clearly understands the Government request. DPW personnel should
ensure that these items are included to execute a proper request for proposal.

                Site Visit Memorandum. Corps and DPW personnel, at
Ansbach, Hanau, Hohenfels, Schweinfurt, and Stuttgart, prepared site visit
memorandums that were not sufficiently descriptive. Personnel did not properly
identify changes in requirements, contractor questions, and Government
personnel replies. In addition, we were unable to determine whether the
contractor and customer received copies of the site visit memorandum.
Specifically, at Hanau, Hohenfels, and Schweinfurt DPWs, we could not
determine whether the person signing the memorandum attended the site visit
because they were not listed on the attendee list. The JOC Manual specifies that
understandings and agreements reached with the contractor or customer during
the site visit must be included in the site visit memorandum, and that the
Government representative conducting the site visit must sign the memorandum.
Additionally, the contractor and the customer are to receive copies of the
memorandum before the contractor prepares the proposal. Personnel must
include those items in the site visit memorandum to avoid any
misunderstandings of requirements, possible litigation, and additional cost and
time for the Government.

               Contractor Proposals. Corps and DPW personnel did not
properly document the receipt of contractor proposals. We could not determine
when the Government received the proposals because Corps personnel and
Hanau and Schweinfurt DPW personnel did not date and time stamp the receipt
on the contractor’s proposal. Corps and DPW personnel should date and time
stamp receipt on the contractor’s proposals to ensure that the proposals are not
opened before preparation and approval of the independent Government
estimate.

               Records of Negotiations. Corps and DPW personnel did not
adequately prepare records of negotiations. Corps and Hanau DPW personnel
did not adequately describe changes in the records of negotiations when there
was a change in the independent Government estimate or the contractor
proposal. Additionally, when funds were not available, the Ansbach and
Schweinfurt DPWs did not always include a statement in the records of
negotiations that the award was subject to availability of funds. The JOC
Manual states that the record of negotiations should include the contractor’s
original and revised proposal with amounts and dates; the original independent
Government estimate with dates and revisions; and if funds are not available, a
statement that no award will be made until appropriate funds are available.
Corps and DPW personnel should adequately prepare and document the records
of negotiations as a basis for the task order.


                                    7
               Completion of DD Forms 1155. Corps personnel failed to
complete the DD Forms 1155 properly. The reviewed forms did not always
indicate the award date, were not always dated or signed by the contractor, or
were signed by the contractor after the Government representative. At the
Corps, we reviewed 173 task orders where 101 had no contractor signature or
date. Additionally, the contractor signed 42 of the 72 dated task orders after the
Government representative. The JOC guide specifies that task order files
contain a DD Form 1155 signed first by the contractor then by the Government
representative. Corps personnel should retain a properly completed
DD Form 1155 in the official contract files.

               Requirements for Notice to Proceed. Corps and DPW
personnel prepared notices to proceed that were undated, unsigned, had no
specified performance period, or were not issued in a timely manner. The JOC
Manual states that the notice to proceed must be issued within 60 days of the
task order date. The Corps JOC and MATOC official contract files did not
usually contain a notice to proceed or a completed notice to proceed with dates
and contractor signature. In addition, Corps personnel did not state the period
of performance or estimated performance time on the notice to proceed unless it
was part of the DD Form 1155. We reviewed 20 JOC task orders at the Corps
that should have included a notice to proceed. Twelve of the 20 notices to
proceed were missing from the contract file. Six other notices were not dated
and signed by the contractor, or did not include a performance period and
completion date. In addition, we reviewed 57 MATOC task orders at the Corps
that should have included a notice to proceed. Twenty-five of the 57 notices to
proceed were missing from the contract file, and 20 other notices to proceed
were not dated or signed and dated by the contractor, or did not state a
performance period and completion date.

DPW personnel issued notices to proceed that were undated, unclear as to the
performance period, and issued more than 60 days after the award of the task
order. The Stuttgart DPW issued notices to proceed that were unclear when
part of the DD Form 1155 and issued undated notices to proceed when a
separate document was prepared. The Hanau DPWs issued notices to proceed
that were not always clear as to the performance period. The Hohenfels and
Schweinfurt DPWs issued notices to proceed more than 60 days after the award
of the task order.

The notice to proceed establishes the start of contractor performance and the
period of performance. The Corps and DPW personnel should accurately
prepare the notice to proceed to ensure that the Government has a legal basis
should any problems arise.

                JOC Checklist. Corps and DPW personnel did not always
properly complete the JOC checklist. The checklist is a management control
tool to ensure that contract actions are properly completed and documented.
The JOC Manual contains a checklist to be used with each task order and
modification. The JOC checklist requires the signatures of two individuals: a
preparer and a reviewer. Corps personnel did not always complete the JOC
checklist or include a second signature. For example, Corps personnel did not
include the checklists for 10 task orders and did not complete the JOC checklists


                                    8
or have two signatures for 21 of the 31 task orders. In addition, Ansbach,
Hohenfels, Schweinfurt, and Stuttgart DPW personnel were not using the
correct checklist. Personnel at these four DPWs and at Hanau DPW did not
always complete the checklist or have the two signatures. Corps and DPW
personnel should use the JOC checklist from the JOC Manual to ensure that
contract actions were performed and adequately documented.

Contractor Performance Reporting. Corps and DPW did not always perform
contractor performance evaluations required by Federal and Army regulations.
In addition, when Corps and DPW personnel prepared performance evaluations,
they did not adequately support the ratings. Also, Corps personnel did not enter
contractor evaluations into the Construction Contractor Appraisal Support
System (CCASS). Additionally, Corps personnel did not consider performance
evaluations during the preaward process.

       Criteria for Evaluation of Contractor Performance. FAR 42.15,
“Contractor Performance Information,” requires that agencies evaluate
construction contractor performance. AFARS 17.9005, “Contract
Administration,” states that contractor performance evaluations shall be
prepared for all orders of $100,000 or more and submitted to the CCASS.

        Preparation of Contractor Performance Evaluations. Corps and
Hanau DPW personnel did not always perform contractor evaluations when
required. Also, evaluations when prepared did not support the ratings. The
contracting officer’s representative delegation letter requires that the contracting
officer’s representative prepare a contractor evaluation for each task order of
$100,000 or more. Corps personnel also did not always complete performance
evaluations when required, and Hanau personnel never prepared performance
evaluations. The other five DPWs prepared performance evaluations, however
they frequently were not sufficiently descriptive to support the ratings or use the
evaluations in the preaward process. Corps personnel did not enter the
evaluation data into CCASS, even when personnel completed performance
evaluations.

        CCASS Data. Corps personnel did not enter contractor performance
evaluations into CCASS for task orders valued at $100,000 or more. During
the period of FY 1998 through December 31, 1999, the Corps and DPW
personnel awarded 160 JOC task orders, valued each at $100,000 or more, with
a total value of $33.4 million, for real property maintenance and repair work in
Germany. However, evaluations for maintenance and repair work performed
under Corps task orders were not entered into CCASS. This condition occurred
even though the Corps received some performance evaluations from the DPWs.
As a result, contractor performance information from CCASS was unavailable
during the preaward process.

        Performance Data During Preaward. Corps contracting personnel did
not consider CCASS data or performance evaluations during the award process.
The “Job Order Contracting Guide” states that before awarding a JOC contract,
contracting officers must retrieve all performance evaluations in the CCASS on
the offerors. Rather, Corps personnel relied upon references provided by the
contractor and then followed up using Corps contract specialists. If Corps


                                     9
personnel are not going to use CCASS, the Corps should at least maintain a
central file by contractor of independent Government evaluations of contractor
performance.

End of Fiscal Year Contracting. DPW personnel awarded several task orders
at fiscal year end without a documented bona fide need. Federal and DoD
guidance cautions against awarding task orders for maintenance and repair at
fiscal year end. The DoD Financial Management Regulation 7000.14,
volume 3, “Budget Execution,” states, “. . . contracts awarded near the end of
the fiscal year must contain a specific requirement that work begins before
January 1 of the following calendar year.” However, the Army funded a
disproportionate share of maintenance and repair projects in Germany during the
final month of the fiscal year. For example, during FY 2000, the DPWs issued
almost 40 percent of their JOC task order dollars for maintenance and repair in
September.

The DPWs awarded several task orders at fiscal year end where work began
after January of the following year. The bona fide needs rule requires that work
be financed with funds that are current when the Government incurred the
obligation. Part of the evidence for a bona fide need is that the contractor will
start promptly and perform without unnecessary delay. DPW documentation did
not always demonstrate a bona fide need. For example, at the Ansbach DPW, 6
of the 12 task orders reviewed, task orders 0017, 0018, 0046, 0049, 0050, and
0051 under the JOC DACA90-99-D-0020, had bona fide need issues. The
Ansbach ordering officer awarded six task orders in September with inflated
performance periods because they had not planned to start the work until after
January. Task orders 0017, 0018, and 0046 had performance periods of
330 days for work similar to task order 0019, which had a performance period
of 90 days. Likewise, task orders 0049, 0050, and 0051 had performance
period of at least 290 days. These projects were similar to task order 0048 that
had a performance period of 130 days. Personnel must document a bona fide
need for fiscal year-end projects.

Corps JOC Oversight Responsibilities. The Corps JOC coordinator provided
constructive guidance to DPW personnel through reviews, staff visit
memorandums, basic JOC training and an annual JOC workshop. The Corps
JOC coordinator tried to visit each DPW in Germany twice per year to review
the ordering officers’ JOC files and procedures as required by the AFARS.
After the review, the Corps JOC coordinator wrote a staff visit memorandum to
the DPW identifying specific task order problems. The JOC coordinator taught
a basic JOC class to personnel before delegating authority to them. In addition,
the JOC coordinator held an annual JOC Workshop for the DPW personnel to
discuss problems. The DPW personnel stated that the training, workshops, and
site visits were beneficial. We believe that without the site visits and training,
the management control issues would have escalated.

Even though the Corps JOC coordinator provided constructive guidance, the
Corps contracting personnel did not provide adequate oversight of the DPWs
use of JOCs. The Corps personnel did not ensure that DPW personnel
implemented the Corps JOC coordinator’s recommendations. For example, if
the JOC coordinator identified a problem on a specific task order, DPW


                                    10
    personnel would correct that task order, but would often not correct the problem
    on other task orders. The JOC coordinator’s only enforcement to correct
    deficiencies is to recommend to the Corps contracting officer that the DPW
    ordering officer authority be revoked. The Corps contracting personnel did not
    provide adequate oversight over Corps JOC contracts. The JOC coordinator
    was not required to review Corps JOC contracts administered by the Corps area
    offices. The Corps should ensure that the JOC coordinator’s site visit
    recommendations are implemented. The JOC coordinator should also visit the
    Corps European area offices and offices in Turkey and Italy twice a year.

Proper and Timely JOC Reporting
    The DPWs did not submit monthly task order status reports to the Corps in a
    timely manner, and did not include all information required by the JOC guide.
    Also, DPW personnel were unable to account for the status of all JOC task
    orders. The JOC guide states that a monthly status report be submitted that
    captures the subject and dollar amount of all task orders issued and completed
    during the month, the status of all incomplete task orders, a statement of the
    total number and dollar amount of task orders issued, and the difference
    between the dollar amount issued and the JOC maximum value.

            Untimely Delivery. DPW personnel did not submit the monthly status
    reports in a timely manner. The JOC guide requires that the DPW personnel
    transmit a monthly status report no later than the tenth day of the following
    month. However, the contracting officer’s representative delegation letter
    required the reports by the last working day of the month. DPW personnel
    submitted 126 of the 200 reports later than the tenth day of the following month
    or the transmission date was undeterminable. Corps personnel should clarify
    when they need the monthly status report. DPW personnel should provide the
    status report within the established timeframe. Additionally, the monthly status
    reports often did not include all required information.

            Incomplete Reports. The DPW monthly status report did not include
    the status of all incomplete task orders. The JOC guide requires that the
    monthly status report include the status of all incomplete task orders, but the
    contracting officer’s delegation letter did not require that information. As a
    result, none of the DPWs included the information, and Corps personnel did not
    request the information. Including the status of all incomplete task orders would
    allow the Corps personnel to account for gaps in task order numbers listed in the
    Standard Army Automated Contracting System, the system that the Corps used
    to manage JOC data. Also, the Hanau DPW personnel did not complete the
    back page of the report, which tabulated remaining funds on the JOC, and
    Corps personnel did not request the information. The monthly status report is a
    management control tool for the Corps and DPW personnel to monitor the
    difference between the dollar amount issued and the JOC maximum value.
    Corps personnel should reconcile the information in the monthly status report
    with the information in the Standard Army Automated Contracting System as a
    control to prevent the DPWs from exceeding JOC monetary limits.




                                       11
            Task Order Tracking. DPW personnel were unable to account for the
    status of all task orders under a JOC. DPW personnel sometimes awarded task
    orders out of sequence and could not readily determine whether a task order was
    waiting funding, cancelled, in process, or completed. Five of the DPWs, all but
    Stuttgart, gave projects a task order number before it was ready to be awarded,
    and the projects were not always awarded in sequence of task order number.
    The DPW personnel did not provide a listing to the Corps of unawarded or
    cancelled task order numbers to account for the gaps in task orders awarded. In
    addition, Hanau DPW provided four task orders for use to their Area Support
    Group DPW but did not obtain copies of the awarded task orders or the amount
    of the task orders. The four task orders totaled $533,294. Since Hanau DPW
    personnel did not obtain the amount of the task orders, they could have
    exceeded the JOC dollar limitation. Management controls were inadequate to
    account for the status of all task orders.

Protection of Program Resources
    Corps personnel did not ensure that management controls were adequate to
    protect Government resources of about $50 million in JOCs and MATOCs for
    real property maintenance. The Corps standard operating procedures were
    either nonexistent or ineffectively used in contracting. However, Corps
    personnel did properly compete MATOC task orders. Additionally, the
    Wuerzburg DPW did not have standard operating procedures for their JOC.

    Unused MATOCs. Corps contracting personnel did not satisfy the minimum
    guarantee requirement for 11 MATOCs. The Corps guaranteed that the
    contractor would receive at least $10,000 in task orders or $10,000 during the
    first year under the contract. However, contracting personnel did not issue any
    task orders for 11 MATOCs in the base year, which resulted in the Government
    owing the contractors minimum guaranteed amounts totaling $110,000. Corps
    personnel issued task orders on 6 of the 11 MATOCs in the first option year,
    and claimed that option year issuance satisfied the minimum guaranteed
    requirement. Corps personnel did not satisfy the minimum guarantee on 4 of
    the 11 MATOCs because they did not issue sole source task orders to satisfy the
    minimum guarantee. Also, the Corps did not award any task orders on the
    remaining MATOC because customers did not require the services specified in
    the MATOC. As of September 2000, the Corps still owed contractors at least
    $50,000 for the remaining five MATOCs.

    Competition of MATOC Task Orders. Corps personnel properly competed
    MATOC task orders. FAR 16.505 “Ordering” requires each awardee have fair
    opportunity for consideration of each task order valued at $2,500 or more. In
    accordance with FAR 16.505, of the 58 task orders that we reviewed, the Corps
    competed 43 task orders (74 percent). The Corps awarded 14 task orders as
    first order awards or sole source awards to meet the minimum guarantee
    requirements. The Corps awarded one task order as a follow-on task order.

    Standard Operating Procedures. The Corps and Wuerzburg DPW did not
    have standard operating procedures for many contracting functions. When the
    contracting personnel had nothing to refer to, contracting documentation was


                                      12
    rarely submitted complete, reviews were extensive and time-consuming, and
    lessons learned were not documented so that mistakes were not repeated. New
    employees were often left to absorb procedures over time rather than referring
    to specific guidance. Standard operating procedures are especially relevant to
    the overseas environment because personnel are assigned to the Corps office in
    Wiesbaden for no more than 5 years. The steady turnover of personnel makes
    current standard operating procedures a necessity. The Corps had not issued
    final standard operating procedures for MATOCs more than 2 years after they
    awarded their initial MATOC. Also, Wuerzburg DPW did not have standard
    operating procedures that identified the duties and responsibilities of all
    participants in the JOC process as required by the JOC guide. The Wuerzburg
    contracting officer’s representative was aware of the proper procedures because
    the individual worked with the JOC since its inception. However, if the
    Wuerzburg contracting officer’s representative was unavailable, his successor
    would have difficulty learning the JOC procedures. Corps and Wuerzburg
    DPW personnel must develop and implement standard operating procedures to
    provide continuity to their organizations.

Summary
    Corps and DPW personnel did not properly award and administer JOC and
    MATOC task orders for real property maintenance in Germany. Corps and
    DPW personnel did not always follow Federal and DoD guidance and
    management controls when awarding and administering contracts. Management
    controls were not established or were missing or circumvented, and contract file
    documentation was incomplete and inaccurate to track the action from inception
    to completion.

    Management controls ensure the compliance of the operation of programs and
    functions performed by an organization, in this case the award and
    administration of maintenance and repair type contracts. Management controls
    should provide reasonable assurance that the resources and functions of an
    organization are adequately protected against fraud, waste, and mismanagement.
    Contracting officers must ensure that all necessary actions are accomplished. If
    these actions are performed in other functional areas such as the DPWs or Corps
    area or resident offices, the contracting officer must receive adequate
    documentation to support the accomplishment of the action. The documentation
    must be complete and organized in such a manner that the contracting officer
    can reconstruct the events, ensure reviews are accomplished, and ensure that
    management controls are not circumvented. Because of the missing, undated,
    unsigned documentation in the contract files, inadequate oversight, and lack of
    standard operating procedures; there was no assurance that the Government’s
    interests in about $50 million in JOCs and MATOCs for real property
    maintenance in Germany were adequately protected.

Corps Corrective Actions
    Corps contracting personnel implemented some corrective actions during the
    audit. Contracting personnel inventoried the Corps Wiesbaden office contract


                                       13
    files. Personnel were drafting standard operating procedures for MATOCs and
    for handling contract files. Also, contracting personnel restricted access to
    contract files and required a central check out and check in area. Additionally,
    the Corps issued guidance in August 2001 that addressed deficient practices in
    the management of JOCs. These actions should alleviate most of the
    management control issues identified during the audit.

Hanau DPW Corrective Actions
    The U.S. Army, Europe, Hanau DPW, 414th Base Support Battalion, Chief,
    Engineering Plans and Services Division, issued a November 27, 2000,
    memorandum outlining corrective actions that would be taken in response to the
    results of our audit. The actions should correct many of the deficiencies noted.
    The memorandum cited the following areas.

           •   Performance evaluations will be completed and forwarded to the
               contracting officer on all task orders over $100,000 and any task
               order requiring special attention upon completion.

           •   Monthly status reports will include the second page and include all
               task orders awarded by the 104th Area Support Group DPW under
               the Hanau JOC.

           •   The 104th Area Support Group DPW task order files awarded under
               the Hanau JOC will be reviewed and maintained.

           •   All task order files will be sent to the Corps upon completion.

           •   Request for proposals will contain the following statement: Before
               work can begin, your proposal must be negotiated, and these
               negotiations will be forwarded for required approvals, including that
               of the contracting officer. No work shall commence until a signed
               delivery order is issued. Note that the delivery order is subject to
               availability of funds, and funding may not be available. Also
               expected duration of the project will be clearly stated.

           •   The site visit memorandum will contain the following items: time
               (hour) of the visit, a statement of mutual understanding between
               contractor and contracting officer’s representative, a statement that
               the customer cannot speak to the contractor, and a statement that all
               the contractor’s questions were answered.

           •   Record of negotiations will continue to be signed by the contracting
               officer’s representative unless directed otherwise.

           •   All checklists for task orders will have two signatures instead of one.




                                        14
Recommendations and Management Comments
    Deleted Recommendation. Based on the exit conference held with U.S. Army,
    Europe, after the issuance of the draft report, we have deleted Recommendation
    2.i. related to splitting task orders and renumbered the remaining
    recommendations.

    1. We recommend that the Commander, U.S. Army Corps of Engineers,
    Europe District, direct the Director of Contracting to:


               a. Develop, issue, and implement standard operating procedures
    to handle, track, and access official contract files.


    Management Comments. The U.S. Army Corps of Engineers concurred and
    stated the current standard operating procedures will be expanded and
    distributed, and personnel will be trained on changes to procedures by
    November 30, 2001.


              b. Enforce the requirements in the ordering officer’s and
    contracting officer’s representative delegation letters, the Job Order
    Contract Manual, and Job Order Contracting Guide, for the U.S. Army,
    Europe, Directorates of Public Works personnel to send the task order
    documentation to the Corps in the timeframes designated.


              c. Include all required documentation in the official contract
    files.


              d. Prepare site visit memorandums to:


                  (1) Include an explanation of understandings and agreements
    with the contractor or customer during the site visit.


                  (2) Include the names of attendees.


                 (3) Include the signature of the Government representative
    conducting the site visit.


                 (4) Issue copies to the contractor and the customer before the
    contractor proposal is prepared.




                                      15
             e. Document the date and time of receipt on contractor
proposals.


             f. Prepare records of negotiation that:


            (1) Sufficiently describe changes in the independent
Government estimate or the contractor’s proposal.


               (2) Include, when required, a statement that the award is
subject to the availability of funds.


Management Comments. The Corps concurred and stated that they sent a
memorandum to inform all Europe District and Directorate of Public Works
managers of the requirements. The Corps will establish internal and external
inspection and reporting procedures, follow up on job order contract
coordinator’s staff visit recommendations, and train personnel in the new
procedures by November 30, 2001.


           g. Prepare DD Forms 1155 “Order for Supplies and Services”
that are signed and dated by the contractor and the Government official.
The contractor should sign the DD Form 1155 before the Government
official.


Management Comments. The Corps concurred and stated that they sent a
memorandum to inform all Europe District and Directorate of Public Works
managers of the requirements. The Corps will establish internal and external
inspection and reporting procedures, follow up on job order contract
coordinator’s staff visit recommendations, and train personnel in the new
procedures by November 30, 2001. The Corps stated that exceptions will be
limited to year-end and will be coordinated and reported to the contracting
officer.


             h. Prepare notices to proceed to:


                (1) Establish the performance period and completion date.


             (2) Include signatures and dates by the Government official
and contractor.


                (3) Issue within 60 days of the award of the task order.


                                    16
Management Comments. The Corps concurred and stated that they sent a
memorandum to inform all Europe District and Directorate of Public Works
managers of the requirements. The Corps will establish internal and external
inspection and reporting procedures, follow up on job order contract
coordinator’s staff visit recommendations, and train personnel in the new
procedures by November 30, 2001. The Corps additionally stated that
exceptions will be actions not requiring a notice to proceed and where the notice
to proceed is not on the DD Form 1155.


         i. Complete the job order contract checklist provided in the Job
Order Contract Manual for each task order.


            j. Prepare contractor performance evaluations that are
sufficiently detailed to support the rating.


Management Comments. The Corps concurred and stated that they sent a
memorandum to inform all Europe District and Directorate of Public Works
managers of the requirements. The Corps will establish internal and external
inspection and reporting procedures, follow up on job order contract
coordinator’s staff visit recommendations, and train personnel in the new
procedures by November 30, 2001.


            k. Enter the contractor performance evaluations into the
Construction Contractor Appraisal Support System or maintain separate
files with performance evaluations for each contractor for use in the
preaward process.


Management Comments. The Corps concurred and stated that they will
comply with maintaining performance evaluations by November 30, 2001.


         l. Perform oversight over the U.S. Army Corps of Engineers
Europe District job order contracts at the Corps area and resident offices.


Management Comments. The Corps concurred and stated that they will
receive, evaluate, and enforce corrective actions on District site inspection
reports within 7 workdays of the inspection. Bi-annual staff assistance visits
will be performed at all Corps area and resident offices administering job order
contracts starting October 1, 2001. Corrective action will be taken on all
deficiencies identified by the job order contract coordinator and not just for the
task orders which the deficiencies were noted but for all applicable task orders.




                                    17
          m. Conduct regular site visits with the U.S. Army, Europe
Directorates of Public Works that have job order contracts. Ensure that
the reviewer’s recommendations are implemented for all applicable task
orders.


Management Comments. The Corps concurred and stated that they will
receive, evaluate, and enforce corrective actions on Directorates of Public
Works site inspection reports within 7 workdays of the inspection. Corrective
action will be taken on all deficiencies identified by the job order contract
coordinator and not just for the task orders on which the deficiencies were noted
but for all applicable task orders.


          n. Establish a timeframe for U.S. Army, Europe Directorates of
Public Works to submit the job order contract monthly status reports to the
contracting officer.


          o. Enforce the established timeframe and requirements for the
monthly status reports with the U.S. Army, Europe Directorates of Public
Works.


Management Comments. The Corps concurred and stated that the District and
Job Order Contract Manual monthly status report requirement of the last
working day of the reporting month was reinforced in a memorandum to the
Directorates of Public Works through U.S. Army, Europe. The Job Order
Contract Manual stipulated the last working day of the month to submit the
monthly status reports. Action was completed by March 30, 2001.


          p. Reevaluate the use of multiple award task order contracts for
narrow disciplines of work.


Management Comments. The Corps concurred. The contracting office will
monitor multiple task order contracts for issuance.


          q. Issue sole-source task orders on multiple award task order
contracts when necessary to meet the minimum guarantee.


Management Comments. The Corps concurred and stated that whenever
practical they will comply.


          r. Develop, issue, and implement standard operating procedures
for contracting functions to provide for continuity of operations.


                                   18
Management Comments. The Corps concurred, and the contracting office will
establish a plan and milestones, map out processes, and develop procedures by
November 30, 2001.

2. We recommend that the Director Public Works, Deputy Chief of Staff,
Engineer, U.S. Army, Europe, direct ordering officers and contracting
officer’s representatives at the U.S. Army, Europe Directorates of Public
Works to:


             a. Prepare request for proposals that:


                (1) Include estimated performance time.


               (2) Include, when required, a statement that the award is
subject to the availability of funds.


             b. Prepare site visit memorandums to:


              (1) Include an explanation of understandings and agreements
with the contractor or customer during the site visit.


                (2) Include the names of attendees.


             (3) Include the signature of the Government representative
conducting the site visit.


             (4) Issue copies to the contractor and the customer before the
contractor proposal is prepared.


             c. Document the date and time of receipt on contractors
proposals.


             d. Prepare the records of negotiations that:


            (1) Sufficiently describe changes in the independent
Government estimate or the contractor’s proposal.


               (2) Include, when required, a statement that the award is
subject to the availability of funds.


                                    19
          e. Prepare notices to proceed to:


              (1) Establish the performance period and completion date.


             (2) Include signatures and dates by the Government official
and contractor.


              (3) Issue within 60 days of the award of the task order.


              (4) Retain in their contract file.


         f. Complete the job order contract checklist provided in the Job
Order Contract Manual for each task order.


            g. Prepare contractor performance evaluations that are
sufficiently detailed to support the rating.


           h. Document a bona fide need for fiscal year-end projects or use
the funds for other projects with bona fide needs.


          i. Implement the U.S. Army Corps of Engineers job order
contract coordinator’s recommendations for all the task orders at a
location. Corrective actions should not be limited to the task orders cited in
the coordinator’s reports.


           j. Provide the U.S. Army Corps of Engineers monthly task order
status reports that are timely and include all information required by the
job order contract guide.


          k. Track the status of all task order numbers including those
waiting funding, cancelled, in process, or completed.


           l. Develop, issue, and implement standard operating procedures
that identify the duties and responsibilities of all participants in the JOC
process as required by the JOC guide.


Management Comments. The U.S. Army, Europe concurred with all
recommendations. The U.S. Army, Europe will endorse the proposed
command memorandum from U.S. Army Corps of Engineers to the Area


                                  20
Support Group Commanders to express the importance of maintaining
management controls procedures as indicated in the Job Order Contract Manual.
The job order contract staff assistance visits will continue at a minimum of twice
a year for each job order contract, and the Inspector General, DoD,
recommendations will be reexamined and reviewed during the visits to ensure
compliance. The reexaminations were put in place as of June 1, 2001.
Additionally, U.S. Army, Europe staff will follow up within 3 weeks after the
completion of each staff assistance visit to ensure compliance with findings.
The Job Order Contract Manual will be relabeled as Job Order Contract
Manual-Standard Operating Procedures because it reflects detailed instructions
on the administration of the job order contract program. The manual
appendixes will be updated to include examples of job order contract
documentation by October 15, 2001.




                                    21
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the award and administration of maintenance
    and repair type contracts awarded by the U.S. Army Corps of Engineers
    Europe. We interviewed personnel from U.S. Army Corps of Engineers,
    Headquarters, Washington, DC, and U.S. Army Corps of Engineers Europe,
    Wiesbaden, Germany. Additionally we met with personnel from the U.S.
    Army, Europe Deputy Chief of Staff, Engineer, Heidelberg, Germany. We
    visited 6 of 10 DPWs: Ansbach, Hanau, Hohenfels, Schweinfurt, Stuttgart, and
    Wuerzburg. We also met with the Defense Criminal Investigative Service and
    U.S. Army Criminal Investigations Command regarding their joint investigation
    of maintenance and repair type contracts awarded by the Corps.

    We judgmentally selected a sample of 16 contracts that included 641 task
    orders, with a value of about $62 million, awarded during the period of October
    1997 through June 2000. The sample included contracts awarded by the Corps
    for work in Germany, Italy, and Turkey. Because Corps personnel could not
    readily locate 30 percent of our sample items, and because of the deficiencies in
    the contract files, we revised our scope to contracts and task orders awarded by
    the Corps and the DPWs for maintenance and repair work in Germany during
    the period of October 1997 through September 2000. We reviewed 138 task
    orders under 16 JOCs, with a value of about $18 million, as well as 58 task
    orders awarded under 29 MATOCs, with a value of about $32 million. We
    examined contract documents such as requests for proposals, site visit
    memorandums, source selection documents, records of negotiations, statements
    of work, notices to proceeds, checklists, contractor performance evaluations,
    and miscellaneous correspondence. We reviewed the DPW JOC monthly status
    reports to the Corps for timeliness and completeness. In addition, we reviewed
    standard operating procedures at the Corps and DPWs related to contract files
    and maintenance and repair type contracts.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Contract Management high-risk area.

Methodology
    Use of Computer-Processed Data. We did not rely on computer-processed
    data or statistical procedures. However, we reviewed data from the
    Construction Contractor Appraisal Support System, the Corps of Engineers
    Financial Management System, and the Standard Army Automated Contracting
    System. The task order information in Standard Army Automated Contracting
    System was not timely or reliable because Corps personnel did not enter JOC




                                       22
    task order data in a timely manner. Also, Corps personnel did not enter data
    from contractor performance appraisals into Construction Contractor Appraisal
    Support System for maintenance and repair contracts in Germany.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from July 2000 through May 2001 in accordance with generally
    accepted government auditing standards.

    Contacts During the Audit. We visited and contacted organizations and
    individuals within the DoD. Further details are available upon request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    U.S. Army Corps of Engineers Europe award and administration of contracts
    for real property maintenance and repair in Germany. Specifically, we
    reviewed the adequacy of management controls over the award and
    administration of MATOCs and JOCs. We reviewed the management’s self-
    evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for U.S. Army Corps of Engineers Europe as defined by
    DoD Instruction 5010.40. U.S. Army Corps of Engineers Europe controls over
    the award and administration of maintenance and repair type contracts were not
    adequate to ensure that regulations and management controls were complied
    with, JOC reports were timely and complete, and program resources were
    protected against fraud, waste, and mismanagement. If management implements
    all recommendations, the management control weaknesses will be corrected. A
    copy of the report will be provided to the senior official responsible for
    management controls within U.S. Army Corps of Engineers.

    Adequacy of Management’s Self-Evaluation. Corps officials did not identify
    the award and administration of maintenance and repair contracts as assessable
    units; and therefore, did not identify the material management control
    weaknesses identified by this audit. The Corps management control plan
    consisted of the required checklists. Contracting personnel completed checklists
    that did not address the discrepancies noted in this audit.




                                       23
Prior Coverage
     The General Accounting Office and the Inspector General, DoD, have
     conducted multiple reviews related to contracting issues. General Accounting
     Office reports can be accessed on the Internet at http://www.gao.gov.
     Inspector General, DoD, reports can be accessed on the Internet at
     http://www.dodig.osd.mil.

General Accounting Office

     General Accounting Office, Report No. NSIAD-98-215, “Acquisition Reform:
     Multiple-award Contracting at Six Federal Organizations,” September 30, 1998.

     General Accounting Office, Report No. NSIAD-00-56, “Contract Management:
     Few Competing Proposals for Large DoD Information Technology Orders,”
     March 20, 2000.


Inspector General, DoD
     Inspector General, DoD, Report No. 99-116, “DoD Use of Multiple Award
     Task Order Contracts,” April 2, 1999.

     Inspector General, DoD, Report No. D2001-189, “Multiple Award Contracts
     for Services,” September 30, 2001.




                                       24
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Initiatives
  Director, Defense Procurement
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics and Technology)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers
  Commander, U. S. Army Corps of Engineers Europe
Commander, U. S. Army, Europe
Commander, U.S. Army Criminal Investigations Command
  U.S. Army Criminal Investigations Command, Special Investigations Branch

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Commander in Chief, U.S. European Command

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          25
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         26
U.S. Army Corps of Engineers Comments




                  27
28
29
30
31
Final Report   U.S. Army, Europe Comments
 Reference




Deleted




                                  32
     Final Report
      Reference




           Deleted




33
34
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

          Joseph P. Doyle
          Deborah L. Culp
          John G. LaBelle
          Kelly D. Garland
          Michael B. Loos
          Jason M. Yovich
